                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM
                                                                                              1




 Case Number: I04050015
                                                                              I         Page 1 of 1



                 A complainant1 provided information about Small Business Innovation Research (SBIR)
          awards received by a cornpan$ from NSF, NASA, and DOE. On the basis of the abstracts provided
          by the funding agencies on their websites, the complainant believed that the company may have
          received duplicate funding for the same or substantially overlapping work.

                 We compared the final reports for the NSF and NASA awards and found no significant
          overlap involving the NSF award^.^ Accordingly, this case is closed.




NSF OIG Form 2 ( 1 1/02)
